BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
National Association of Counties, National League of
Cities, United States Conference of Mayors,
International City/County Management Association,
International Municipal Lawyers' Association, and
Government Finance Officers Association, in Support
of Petitioner in 19-357, City of Chicago, Illinois v.
Robbin L. Fulton, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 10th day of February, 2020:
Craig Goldblatt
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com
Counsel for Petitioner
Eugene R. Wedoff
144 N. Elmwood Avenue
Oak Park, IL 60302
(312) 285-5849
erwedoff@me.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Scott Burnett Smith
Counsel of Record
Bradley Arant Boult Cummings LLP
200 Clinton Avenue West
Huntsville, AL 35801
(256) 517-5100
ssmith@bradley.com
Amanda Kellar Karras
International Municipal Lawyers Association
51 Monroe St., Suite 404
Rockville, MD 20850
Stephen C. Parsley
Bradley Arant Boult Cummings LLP
1819 Fifth Avenue North
Birmingham, AL 35203
Lisa E. Soronen
State & Local Legal Center
444 North Capitol Street, N.W
Suite 515
Washington, D.C. 20001
Alexandra E. Dugan
Bradley Arant Boult Cummings LLP
1600 Division St.
Ste. 700
Nashville, TN 37203

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 10, 2020.

Donna J. Wolf
(t)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

' ' .'

.IE ANNE KERSHNER

1

' ·'.ary Public, State of Ohio
:,1y Curnmission Expires
February 21 , 2023

